TREASURY INSPECTOR GENERAL FOR TAX ADMINISTRATION




                 Affordable Care Act: The Customer Service
                     Strategy Sufficiently Addresses Tax
                       Provisions; However, Changes in
                   Implementation Will Create Challenges




                                       December 30, 2013

                              Reference Number: 2014-43-006




 This report has cleared the Treasury Inspector General for Tax Administration disclosure review process
  and information determined to be restricted from public release has been redacted from this document.


 Phone Number | 202-622-6500
 E-mail Address | TIGTACommunications@tigta.treas.gov
 Website        | http://www.treasury.gov/tigta
                                                      HIGHLIGHTS


AFFORDABLE CARE ACT: THE                                  obtaining the tax credit to offset the cost of
CUSTOMER SERVICE STRATEGY                                 health care insurance.
SUFFICIENTLY ADDRESSES TAX                                In a May 2012 Memorandum of Understanding
PROVISIONS; HOWEVER, CHANGES IN                           between the IRS and the Department of Health
IMPLEMENTATION WILL CREATE                                and Human Services (HHS), it was agreed that
CHALLENGES                                                the HHS would be the lead agency and serve as
                                                          the “public face” for customer service at the
                                                          Marketplaces until Calendar Year 2015.
Highlights                                                Individuals who contact the IRS for ACA
                                                          assistance will be referred to the HHS’s public
Final Report issued on                                    website (Healthcare.gov) and toll-free telephone
December 30, 2013                                         assistance lines. The IRS will also refer
                                                          individuals to its own recorded telephone
Highlights of Reference Number: 2014-43-006               messages and self-assistance tools.
to the Internal Revenue Service Deputy                    In Calendar Year 2015, the IRS will take the
Commissioner for Services and Enforcement.                lead to provide customer service when
IMPACT ON TAXPAYERS                                       individuals begin filing their 2014 tax returns and
                                                          must include the amount of any Advance
The Affordable Care Act (ACA) includes tax                Premium Tax Credit payments on their tax
provisions that require individuals to maintain           return and reconcile it to the allowable amount.
minimum essential coverage (MEC) and that                 The IRS’s customer service will include
provide for a tax credit (Premium Tax Credit) to          providing face-to-face assistance at its
offset an individual’s health care expenses. The          390 Taxpayer Assistance Centers located
IRS will impose a penalty on any taxpayer who,            throughout the United States.
after Calendar Year 2013, fails to maintain the
MEC for three months or more and does not                 However, changes in ACA implementation will
qualify for an exemption.                                 create challenges. Depending on the nature of
                                                          any changes made to ACA tax provisions, the
WHY TIGTA DID THE AUDIT                                   IRS’s strategy and plans to provide customer
                                                          service, outreach, education, and employee
This audit was initiated to evaluate the IRS’s            training could be affected. Changes to the
efforts to provide individuals assistance related         provisions could also affect the IRS’s plans to
to the ACA provisions on obtaining the MEC and            update its tax forms, instructions, and
the tax credit to offset health care expenses.            publications.
Starting in October 2013, individuals who seek
to acquire the MEC for Calendar Year 2014 will            WHAT TIGTA RECOMMENDED
be offered a choice of health plans and the
ability to determine their eligibility for a tax credit   TIGTA did not make recommendations in this
through one of the State Marketplaces or the              report. A draft of the report was provided to IRS
Federal Marketplace.                                      management for review. The IRS did not
                                                          provide comments on the report.
WHAT TIGTA FOUND
The IRS’s customer service strategy is a
collaborative and coordinated effort between the
IRS and multiple Federal and State agencies.
The strategy includes sufficient plans to
1) perform outreach and education; 2) update or
develop tax forms, instructions, and publications;
and 3) provide employee training to assist
individuals in understanding the requirement to
maintain the MEC and the tax implications of
                                                DEPARTMENT OF THE TREASURY
                                                      WASHINGTON, D.C. 20220




TREASURY INSPECTOR GENERAL
  FOR TAX ADMINISTRATION




                                             December 30, 2013


 MEMORANDUM FOR DEPUTY COMMISSIONER FOR SERVICES AND
                ENFORCEMENT


 FROM:                        Michael E. McKenney
                              Acting Deputy Inspector General for Audit

 SUBJECT:                     Final Audit Report – Affordable Care Act: The Customer Service
                              Strategy Sufficiently Addresses Tax Provisions; However, Changes in
                              Implementation Will Create Challenges (Audit # 201340317)

 This report presents the results of our review to evaluate the Internal Revenue Service’s (IRS)
 customer service planning efforts to provide assistance to individuals for the Affordable Care
 Act1 provisions on obtaining minimum essential coverage and the tax credit to offset health care
 expenses. This audit was included in the Treasury Inspector General for Tax Administration’s
 Fiscal Year2 2013 Annual Audit Plan and addresses the major management challenge of
 Implementing the Affordable Care Act and Other Tax Law Changes.
 Although we made no recommendations in this report, we did provide IRS officials an
 opportunity to review the draft report. IRS management did not provide us with comments on
 the report.
 If you have any questions, please contact me or Russell P. Martin, Acting Assistant Inspector
 General for Audit (Returns Processing and Account Services).




 1
   Pub. L. No. 111-148, 124 Stat. 119 (2010) (codified as amended in scattered sections of the U.S. Code), as
 amended by the Health Care and Education Reconciliation Act of 2010, Pub. L. No. 111-152, 124 Stat. 1029.
 2
   A 12-consecutive-month period ending on the last day of any month. The Federal Government’s fiscal year begins
 on October 1 and ends on September 30.
                     Affordable Care Act: The Customer Service Strategy Sufficiently
                     Addresses Tax Provisions; However, Changes in Implementation
                                          Will Create Challenges




                                            Table of Contents

Background .......................................................................................................... Page 1

Results of Review ............................................................................................... Page 4
          The Customer Service Strategy Is a Collaborative and
          Coordinated Effort ........................................................................................ Page 4
          Changes in Affordable Care Act Implementation Will Create
          Challenges to Customer Service Planning .................................................... Page 10

Appendices
          Appendix I – Detailed Objective, Scope, and Methodology ........................ Page 11
          Appendix II – Major Contributors to This Report ........................................ Page 13
          Appendix III – Report Distribution List ....................................................... Page 14
      Affordable Care Act: The Customer Service Strategy Sufficiently
      Addresses Tax Provisions; However, Changes in Implementation
                           Will Create Challenges




                      Abbreviations

ACA             Affordable Care Act
HHS             Department of Health and Human Services
IRS             Internal Revenue Service
MEC             Minimum Essential Coverage
PTC             Premium Tax Credit
                  Affordable Care Act: The Customer Service Strategy Sufficiently
                  Addresses Tax Provisions; However, Changes in Implementation
                                       Will Create Challenges




                                             Background

The Patient Protection and Affordable Care Act of 20101 and the Health Care and Education
Reconciliation Act of 20102 (hereafter collectively referred to as the Affordable Care Act
(ACA)) were both signed into law in March 2010. The ACA seeks to provide more Americans
with access to affordable health care by creating a new Health Insurance Marketplace (also
known as Exchanges and hereafter referred to as Marketplace), enforcing patient/consumer
protections, and providing Government subsidies for people who cannot afford insurance. The
Marketplace simplifies an applicant’s search for health
coverage by providing multiple options in one place              The ACA represents the
and comparing plans based on price, benefits, quality,        largest set of tax law changes
and other important features that help consumers make           in more than 20 years and
a choice.                                                     presents a major challenge to
                                                                         the Internal Revenue Service.
Included in the ACA are approximately 50 tax
provisions that add to or amend the Internal Revenue
Code. These provisions include ones that provide incentives and tax breaks to individuals and
small businesses to offset health care expenses and impose penalties for individuals and
businesses that do not obtain health care coverage for themselves or their employees.
The Internal Revenue Service (IRS) is responsible for implementation and administration of
those ACA provisions that have an impact on tax administration. Since its passage, the IRS
continues to take steps to implement the ACA provisions and help individuals understand their
responsibilities and rights. These actions include revising or developing tax forms, instructions,
and publications; training IRS employees; revising internal processes and procedures; issuing
revenue procedures3 and regulations;4 developing a customer service strategy; and providing
outreach to taxpayers and tax professionals.



1
  Pub. L. No. 111-148, 124 Stat. 119 (2010) (codified as amended in scattered sections of the U.S. Code), as
amended by the Health Care and Education Reconciliation Act of 2010, Pub. L. No. 111-152, 124 Stat. 1029.
2
  Pub. L. No. 111-152, 124 Stat. 1029. (See Affordable Care Act, infra).
3
  Revenue procedures are official statements of a procedure that affects the rights or duties of taxpayers or other
members of the public under the Internal Revenue Code, related statutes, tax treaties, and regulations and that should
be a matter of public knowledge. A revenue procedure provides return filing or other instructions concerning an IRS
position.
4
  Regulations are issued by the IRS and the Department of the Treasury to provide guidance for new legislation or to
address issues that arise with respect to existing Internal Revenue Code sections. Regulations interpret and give
directions on complying with the law.


                                                                                                             Page 1
                  Affordable Care Act: The Customer Service Strategy Sufficiently
                  Addresses Tax Provisions; However, Changes in Implementation
                                       Will Create Challenges



In October 2013, individuals can begin enrolling in health insurance coverage
offered through a Marketplace
In order to enroll in health insurance coverage offered through a Marketplace, taxpayers must
complete an application and meet certain eligibility requirements defined by the ACA. For
example, they must be citizens of the United States or lawful permanent residents. The ACA
requires that enrollment at Marketplaces begin on October 1, 2013. Marketplaces will operate in
every State and the District of Columbia. As of August 2013, 14 States and the District of
Columbia have their own State-run Marketplaces. The Federal Government will help run or
completely run the Marketplaces in the remaining 36 States.
Provisions in the ACA require individuals to have either minimum essential coverage (MEC)5
for each month beginning January 2014, qualify for an exemption,6 or pay a penalty to the IRS
when filing their Federal income tax return. The provision applies to individuals of all ages,
including children. Beginning January 2014, eligible taxpayers who purchase health insurance
through a Marketplace may qualify for and request a refundable tax credit7 to assist with paying
the cost of health insurance premiums. The credit is called the Premium Tax Credit (PTC) and is
claimed on the taxpayer’s Federal tax return, starting with the 2014 tax return. The PTC will be
available for individuals and families who are not offered affordable MEC through an employer
or a Government program, like Medicaid or Medicare, and who earned less than four times the
Federal poverty level. This means individuals who earned $45,960 or less and a family of four
who earned $94,200 or less in Calendar Year 2013 will qualify.
Individuals and families can receive the PTC as an advance payment to their health insurance
provider to help cover the cost of premiums. This payment is referred to as the Advance PTC
and will be issued monthly by the Department of the Treasury’s Federal Management Services
Branch on behalf of the taxpayer to the health insurance provider.
This audit was conducted while changes were being made to the ACA regulations and while
the IRS was updating its implementation strategy. Changes and updates that occurred
after we concluded our analyses in August 2013 are not reflected in this report. This review
was performed by analyzing data obtained from the IRS Headquarters ACA Office in

5
  The MEC may include employer-sponsored coverage, coverage purchased in a Marketplace, Medicare Part A
coverage and Medicare Advantage, Medicaid coverage, or other coverage types.
6
  Individuals may qualify for exemptions from the MEC. Certain exemptions, such as unaffordable coverage and
short insurance coverage gaps, can be claimed only as part of filing a Federal income tax return, starting with the
2014 tax return. Exemptions for religious conscience and hardship can be obtained only through the Marketplaces
starting in Calendar Year 2014. Exemptions for members of Indian tribes, members of health care sharing
ministries, and individuals who are incarcerated can be obtained through either the Marketplaces or by filing a
Federal tax return.
7
  Any tax credit that is refundable can be used by the taxpayer to reduce his or her tax liability to zero. Any excess
of the credit beyond the tax liability can be refunded to the taxpayer.


                                                                                                               Page 2
               Affordable Care Act: The Customer Service Strategy Sufficiently
               Addresses Tax Provisions; However, Changes in Implementation
                                    Will Create Challenges



Washington, D.C., during the period April through August 2013. We conducted this
performance audit in accordance with generally accepted government auditing standards. Those
standards require that we plan and perform the audit to obtain sufficient, appropriate evidence to
provide a reasonable basis for our findings and conclusions based on our audit objective. We
believe that the evidence obtained provides a reasonable basis for our findings and conclusions
based on our audit objective. Detailed information on our audit objective, scope, and
methodology is presented in Appendix I. Major contributors to the report are listed in
Appendix II.




                                                                                            Page 3
               Affordable Care Act: The Customer Service Strategy Sufficiently
               Addresses Tax Provisions; However, Changes in Implementation
                                    Will Create Challenges




                                Results of Review

The Customer Service Strategy Is a Collaborative and Coordinated
Effort
The IRS’s ACA customer service strategy provides sufficient plans to assist individuals in
understanding the tax implications of the ACA. The strategy is a collaborative and coordinated
effort between the IRS and multiple Federal and State agencies. The strategy includes sufficient
plans to: 1) perform outreach and education; 2) update and/or develop tax forms, instructions
and publications; and 3) provide employee training to assist individuals in understanding
requirements to maintain the MEC and the tax implications of obtaining the tax credit to offset
the cost of health care insurance.
Although the Department of Health and Human Services (HHS) is the lead agency in
implementing the ACA, many of the provisions require the IRS to provide information to assist
the Marketplace with determining eligibility and enrollment, develop calculations such as the
maximum Advance PTC, and reconcile the credit with reported taxable income. The IRS’s ACA
Office provides strategic direction to implement ACA provisions. Within the ACA Office,
unique teams have been created to focus on various aspects of the IRS’s implementation of ACA
provisions. For example:
      The Affordable Care Project Management Team is responsible for overall project
       management activities in support of other ACA Office teams, the IRS’s interagency
       efforts, and legislative activities with regard to the ACA. The office also facilitates
       communications between the ACA Office and other IRS offices.
      The Filing and Premium Tax Credit Team provides direction in the design of processes to
       support the implementation of new ACA filing requirements. The office also oversees
       coordination with multiple government agencies.
      The Customer Service and Stakeholder Relations Team promotes stakeholder
       understanding of ACA legislation and the IRS’s role in implementing ACA tax
       provisions. The office implements outreach and education to stakeholders and customer
       service channels, such as self-assisted tools and toll-free telephone assistance.




                                                                                             Page 4
               Affordable Care Act: The Customer Service Strategy Sufficiently
               Addresses Tax Provisions; However, Changes in Implementation
                                    Will Create Challenges



The customer service strategy refers individuals to the HHS for ACA assistance
until Calendar Year 2015
In a May 2012 Memorandum of Understanding between the IRS and the HHS, it was agreed that
the HHS would be the lead agency and serve as the “public face” for customer service at the
Marketplaces until Calendar Year 2015. The HHS is also responsible for monitoring the
State-run Marketplaces to ensure that they are providing accurate and consistent information on
ACA provisions. The HHS developed detailed guidelines on the actions that the State-run
Marketplaces must perform, including providing appropriate outreach and education.
In Calendar Year 2015, the IRS will take the lead in providing customer service when
individuals begin filing their 2014 tax returns and must include the amount of any Advance PTC
on their tax return and reconcile it to the allowable amount of the PTC. This will include
providing face-to-face assistance at its 390 Taxpayer Assistance Centers located throughout the
United States, starting in January 2015.
Until such time, the IRS will refer individuals contacting the IRS for ACA assistance to the
HHS’s public website (Healthcare.gov) and toll-free telephone assistance lines, and offer its own
recorded telephone messages and self-assistance tools. Although the IRS will refer individuals
to the HHS, the IRS remains responsible for coordinating, reviewing, and approving the ACA
messages and information provided to individuals contacting the HHS’s toll-free telephone lines
and/or researching the Healthcare.gov website regarding both tax provisions. In addition to its
coordinated efforts with the HHS, the IRS’s strategy includes the:
      Development of 10 recorded telephone messages to answer inquiries when individuals
       contact the IRS’s toll-free telephone assistance lines. The topical areas of these messages
       include information on how to obtain health care coverage, implications of not obtaining
       health care coverage (penalties), and the availability of financial assistance to purchase
       health care coverage, including the Advance PTC. We reviewed the content of these
       messages and determined that the information was accurate.
      Development of an IRS ACA public website (IRS.gov/aca). The website provides
       information on MEC and PTC provisions and provides a link to the HHS website. The
       HHS’s website contains further information to assist individuals in learning about the
       Advance PTC, including income levels that could qualify for this credit. We reviewed
       MEC and PTC content on both the IRS and the HHS websites and confirmed that
       information was accurate.




                                                                                           Page 5
                 Affordable Care Act: The Customer Service Strategy Sufficiently
                 Addresses Tax Provisions; However, Changes in Implementation
                                      Will Create Challenges



       Use of social media8 sites such as Twitter and Facebook to provide individuals with the
        latest information on ACA tax changes and services.
The IRS’s customer service strategy also includes processes to continuously monitor the
informational needs of the public in an attempt to ensure that the information needed is being
provided. These monitoring processes include reviewing call center Contact Analytics9 and
Quality reports, counts of ACA contacts at the Taxpayer Assistance Centers, and counts for
individuals listening to the various pre-recorded, toll-free telephone ACA messages. The call
volumes are monitored to determine volume spikes, ACA topic needs, and the effectiveness of
the telephone message scripts. The IRS is reviewing this information weekly to determine if any
changes are needed to its outreach and education efforts.
The IRS’s outreach and education plan is part of a larger Government education campaign in
which the IRS collaborated with other Federal agencies, including the U.S. Department of Labor
and the HHS. As part of this effort, the IRS developed an agencywide outreach and education
plan to reach major ACA customer segments with tax–related information. Figure 1 provides a
summary of some of the outreach and education activities completed or planned by the IRS and
the HHS related to ACA tax provisions.




8
  Social media is the use of web-based and mobile technologies to turn communication into interactive dialogue.
9
  Contact Analytics is a business intelligence and performance management tool using speech analytics technology.
It is used to evaluate recorded audio for the purpose of identifying opportunities for improving the customer
experience and potential cost savings/efficiency gains.



                                                                                                          Page 6
                 Affordable Care Act: The Customer Service Strategy Sufficiently
                 Addresses Tax Provisions; However, Changes in Implementation
                                      Will Create Challenges



                Figure 1: IRS and HHS Outreach and Education Activities
                                 Completed or Planned

 Agency                                      Outreach and Education Activity

                Issued several proposed and final regulations and notices and developed a Frequently
                Asked Questions section related to MEC and PTC provisions and posted this information
                to its IRS.gov ACA website.

                Issued Publication 5093, Health Care Law Online Resources, in June 2013 which
     IRS        provides a list of ACA-related online resources for individuals and employers, including
                the website addresses for the HHS, the IRS, and other Federal agencies.

                Prepared a presentation on MEC and PTC provisions presented at IRS Nationwide Tax
                Forums held during the period July to September 2013. About 8,000 individuals attended
                these presentations.

                Developed a paper and online health insurance application for use by the Marketplaces.

                Opened a toll-free telephone call center in June 2013 to provide automated informational
                messages to inquiries from individuals seeking health insurance information. The call
                center started offering live assistance in August 2013. In addition, as of August 2013,
     HHS        customers can use online chat and can create accounts on Healthcare.gov in preparation
                of the Marketplace open enrollment on October 1, 2013.

                Will provide Navigators (contractors who will assist individuals with the application
                process to obtain insurance at the Marketplaces) with comprehensive training on the tax
                implications of consumer enrollment decisions, eligibility requirements for the PTC, and
                the impact of the tax credit on the cost of insurance.

Source: Treasury Inspector General for Tax Administration analysis of IRS and HHS outreach and education
planning documents.

Tax forms, instructions, and/or publications are being updated and/or developed
In a prior audit,10 we reported the IRS has two tiers of controls in place for ensuring that tax
forms, instructions, and related publications are updated for ACA provisions. The first tier is the
informed assessment conducted by the Tax Forms and Publications function. This function
reviews new legislation and identifies a “first cut” of what forms, publications, and instructions
need to be revised for every legislative provision. The second tier is the business assessment

10
  Treasury Inspector General for Tax Administration, Ref. No. 2012-43-064, Affordable Care Act: Planning Efforts
for the Tax Provisions of the Patient Protection and Affordable Care Act Appear Adequate; However, the Resource
Estimation Process Needs Improvement p. 6 (Jun. 2012).


                                                                                                        Page 7
                 Affordable Care Act: The Customer Service Strategy Sufficiently
                 Addresses Tax Provisions; However, Changes in Implementation
                                      Will Create Challenges



performed by subject matter experts in the business units and aided by the Tax Forms and
Publications function. Often the business units will confirm what the Tax Forms and
Publications function identified and may identify additional affected forms, publications, and
instructions.
The audit also found that the IRS is updating and developing tax forms, instructions, and
publications related to the MEC and the PTC. For example, the following are three of the new
tax forms the IRS is creating to assist individuals in complying with MEC provisions:
        Form 8965, Reporting of Exemptions From Coverage, will be used by individual
         taxpayers to report to the IRS the exemption certificate number received from a
         Marketplace, or for individuals to apply for an exemption with the IRS. An individual
         will submit this form starting with their 2014 tax return as proof that they are not required
         to maintain the MEC and are not subject to a penalty.
        Form 1095-A, Affordable Insurance Exchange Statement, will be used by the
         Marketplaces to furnish a written statement to each individual who enrolled, or whose
         family member enrolled, in a qualified health insurance plan. The written statement
         contains information that the Marketplaces must report to the IRS annually. This
         statement will serve as proof that the individual maintained the MEC and is not subject to
         a penalty.
        Form 1095-B, Health Insurance Coverage Statement, will be used by a health insurance
         company to furnish a written statement to each individual who enrolled, or whose family
         member enrolled, in a qualified health insurance plan. This statement will serve as proof
         that the individual maintained the MEC and is not subject to a penalty.
These tax forms are critical to the IRS’s ability to validate or process MEC exemptions and to
provide a way for the IRS to determine if individuals are in compliance with MEC requirements.
The IRS will release these new tax forms around May 2014 for public comment with the final
versions available in the first quarter of Fiscal Year11 2015. Individuals will be able to obtain
ACA-related tax forms and publications by ordering them on the IRS’s toll-free telephone lines,
downloading them from IRS.gov, or visiting a Taxpayer Assistance Center.




11
  A 12-consecutive-month period ending on the last day of any month. The Federal Government’s fiscal year
begins on October 1 and ends on September 30.


                                                                                                       Page 8
                  Affordable Care Act: The Customer Service Strategy Sufficiently
                  Addresses Tax Provisions; However, Changes in Implementation
                                       Will Create Challenges



IRS employees are being trained on ACA tax provisions, and the IRS is assisting
the HHS in the development of ACA tax-related training for its employees
The IRS began training its employees on the ACA the third quarter of Fiscal Year 2013 and has
plans to continue training employees into the second quarter of Fiscal Year 2014. Business
operating divisions12 identified their ACA orientation training needs and work is underway to
address these needs. For example:
        Presentations were developed covering basic and in-depth ACA information.
        Internal executive briefings were conducted with key business operating division
         executives in the third quarter of Fiscal Year 2013 to provide an overview of ACA
         Marketplace-related provisions, including the PTC and the MEC.
        ACA information has been incorporated into continuing professional education courses
         for revenue officers and examination employees.13
        A self-reading course was developed for IRS customer service employees explaining the
         IRS’s strategy to refer taxpayer inquiries to the HHS.
In addition, the IRS worked with the HHS to develop and review the tax-related content of the
PTC training material that the HHS provides its employees to ensure that the information is
accurate. The IRS is also working with the HHS on the training material related to the MEC.

Analysis performed to estimate customer service staffing resources
The IRS completed an analysis to estimate the customer service staffing resources needed in
Fiscal Year 2014 to implement the ACA. Review of the documentation found that the analysis
was based on adequate operational and financial data, and reasonable assumptions were made
relating to such things as the percent of account and nonaccount-related questions that
individuals might ask and the percent of those calls that the IRS can address with self-assistance
tools versus live assistance. For Fiscal Year 2014, the IRS estimates that it will receive
11.4 million contacts from individuals that relate to ACA tax provisions.14 To handle these


12
   Business operating divisions refer to the IRS’s four main divisions: 1) the Large Business and International
Division; 2) the Small Business/Self-Employed Division; 3) the Wage and Investment Division; and 4) the Tax
Exempt and Government Entities Division.
13
   Revenue officers are employees in the Collection Field function who attempt to contact taxpayers and resolve
collection matters that have not been resolved through notices sent by the IRS submission processing sites.
Examination function employees include employees who primarily conduct examinations of individual taxpayers’
tax returns.
14
   Including the small business health care tax credit, excise tax on tanning, and the additional Medicare taxes on
high-income taxpayers (non-Marketplace provisions).


                                                                                                             Page 9
                 Affordable Care Act: The Customer Service Strategy Sufficiently
                 Addresses Tax Provisions; However, Changes in Implementation
                                      Will Create Challenges



contacts, the IRS estimates that it will need 754 Full-Time Equivalents15 in its Accounts
Management and Field Assistance functions. Another 195 Full-Time Equivalents are estimated
to be needed in other functions affected by the ACA, such as those involved in the processing
and examination of tax returns. If further budget cuts are made to IRS customer service for
Fiscal Year 2014, the IRS will need to re-examine its plans and consider cutbacks in the services
it can provide or reduce staffing in other programs.

Changes in Affordable Care Act Implementation Will Create
Challenges to Customer Service Planning
Changes in the implementation of ACA tax provisions can result in increased demand for
customer service assistance resulting in more contacts with the IRS. Depending on the nature of
any changes made to ACA tax provisions, the IRS’s strategy and plans to provide adequate
customer service; outreach and education; employee training; and tax forms, instructions, and
publications could be affected. For example, implementation of a key ACA provision related to
the requirement for applicable employers to offer health insurance was delayed on
July 2, 2013. The implementation of this provision was delayed until Calendar Year 2015. The
provision requires employers with 50 or more full-time equivalent employees to provide
insurance to their employees or pay a fee to the IRS. If employers choose not to provide
insurance coverage to their employees in Calendar Year 2014, the employees may seek insurance
through the Marketplaces starting in October 2013 and could apply for financial assistance
through the Advance PTC.
In an attempt to mitigate the effect that implementation changes may have on the IRS’s ability to
provide adequate customer service, the IRS has developed oversight and monitoring processes
and procedures. These are in place to alert the IRS at the earliest possible time period of actions
that may affect its operations. For example, the IRS ACA Office:
        Monitors public debate, pending bills, legislation, regulations, and court activities.
        Reviews reports provided weekly from its Legislative Affairs function. These reports
         identify bills that may be moving through Congress that would modify the ACA, if
         passed.
        Coordinates with various IRS functional offices involved in the implementation of tax
         provisions of the ACA, such as the Information Technology organization and the Tax
         Forms and Publications function, to ensure that ACA-related systems are developed as
         scheduled, and forms and publications are developed or updated and available to
         taxpayers on time.

15
  A measure of labor hours in which one Full-Time Equivalent is equal to eight hours multiplied by the number of
compensable days in a particular fiscal year.


                                                                                                        Page 10
               Affordable Care Act: The Customer Service Strategy Sufficiently
               Addresses Tax Provisions; However, Changes in Implementation
                                    Will Create Challenges



                                                                                  Appendix I

        Detailed Objective, Scope, and Methodology

Our overall objective was to evaluate the IRS’s customer service planning efforts to provide
assistance to individuals for the ACA provisions on obtaining the MEC and the tax credit to
offset health care expenses. Our review was limited to the IRS’s customer service strategy; plans
to update forms, instructions, and publications; training for customer service employees;
outreach and education of taxpayers and tax return preparers; coordination with the HHS; and
resource estimation. To accomplish this objective, we:
I.     Evaluated the IRS’s customer service strategy to assist individuals seeking information
       related to the MEC and the tax credit.
       A. Reviewed business requirements, project roadmaps defining milestones, and other
          documentation relevant to the customer service strategy.
       B. Determined the IRS’s plans to coordinate with other Federal agencies on customer
          service.
       C. Determined the IRS’s internal plans for providing customer service at the Taxpayer
          Assistance Centers and through toll-free telephone access.
II.    Determined if the IRS had adequate plans for changes to forms, instructions,
       publications, and Internal Revenue Manuals that will be affected by the requirement to
       maintain the MEC and the ACA tax credit provisions.
III.   Determined if the IRS had planned for adequate training for employees responsible for
       providing customer service related to the requirement to maintain the MEC and the ACA
       tax credit provisions.
IV.    Determined if the IRS had an adequate plan to perform outreach and education to
       individual taxpayers and tax return preparers regarding the requirement to maintain the
       MEC and the availability of the tax credit.
       A. Determined if the IRS had an adequate plan to perform outreach and education to
          individual taxpayers and tax return preparers.
       B. Determined whether the IRS’s plans for providing information on IRS.gov and
          through social media were adequate.
       C. Determined plans to educate taxpayers on the process/method by which the Advance
          PTC is advanced to taxpayers and later reconciled with their returns.


                                                                                         Page 11
               Affordable Care Act: The Customer Service Strategy Sufficiently
               Addresses Tax Provisions; However, Changes in Implementation
                                    Will Create Challenges



       D. Determined whether the IRS planned to target outreach and education by
          demographics and how the demographics will be collected.
       E. Determined whether the IRS had adequate plans to monitor and measure the outreach
          and education efforts.
       F. Determined if the IRS had adequately planned for the resources needed to provide
          customer service related to the requirement to maintain the MEC and the availability
          of the tax credit. In addition, we evaluated the documentation supporting staffing
          resource estimates.
Internal controls methodology
Internal controls relate to management’s plans, methods, and procedures used to meet their
mission, goals, and objectives. Internal controls include the processes and procedures for
planning, organizing, directing, and controlling program operations. They include the systems
for measuring, reporting, and monitoring program performance. We determined the following
internal controls were relevant to our audit objective: the IRS’s planning processes to ensure that
customer service is provided to taxpayers regarding the requirement to maintain the MEC and
the availability of the tax credit. We evaluated these controls by interviewing management and
analyzing IRS planning documents.




                                                                                           Page 12
              Affordable Care Act: The Customer Service Strategy Sufficiently
              Addresses Tax Provisions; However, Changes in Implementation
                                   Will Create Challenges



                                                                                Appendix II

                 Major Contributors to This Report

Russell P. Martin, Acting Assistant Inspector General for Audit (Returns Processing and
Account Services)
Allen Gray, Director
Wilma Figueroa, Audit Manager
Pamela DeSimone, Lead Auditor
Jack Forbus, Senior Auditor
Nelva Usher, Auditor




                                                                                          Page 13
              Affordable Care Act: The Customer Service Strategy Sufficiently
              Addresses Tax Provisions; However, Changes in Implementation
                                   Will Create Challenges



                                                                           Appendix III

                         Report Distribution List

Commissioner
Office of the Commissioner – Attn: Chief of Staff C
Commissioner, Wage and Investment Division SE:W
Director, Affordable Care Act Office SE:ACA
Deputy Director, Strategy and Finance, Wage and Investment Division SE:W:S
Associate Chief Financial Officer for Corporate Planning and Internal Control OS:CFO:CPIC
Chief Counsel CC
National Taxpayer Advocate TA
Director, Office of Legislative Affairs CL:LA
Director, Office of Program Evaluation and Risk Analysis RAS:O
Office of Internal Control OS:CFO:CPIC:IC
Audit Liaisons:
   Director, Oversight and Non-Exchange Provisions SE:ACA
   Chief, Program Evaluation and Improvement, Wage and Investment Division SE:W:S:PEI

 




                                                                                   Page 14
